No. 19In The

Supreme Court of
tfje ®lntteti States
Lawrence I. Fejokwu,
Petitioner,
v.
Commodity Futures Trading Commission,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI

Lawrence Ikemefune C. Fejokwu
Pro se
6905 Bellevue Avenue
2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
Law-Fej@ChazonQTA.com

QUESTIONS PRESENTED
The Commodity Futures Trading Commission,
under 7 U.S.C. § 21, has delegated limited powers to
the National Futures Association. The NFA is a non­
governmental, industry-operated, self-regulatory
organization. According to the NFA, Mr. Fejokwu
“willfully violated” NFA Rule 2—5: Cooperation in
NFA Investigations and Proceedings.
NFA alleges Fejokwu’s “willful” violation arose
by his "willfully" failing to fully cooperate with an
NFA investigation because although he otherwise
fully cooperated and acted in good-faith, he "willfully"
questioned, and "willfully" sought clarification
regarding the relevance of one document among scores
that NFA requested him to produce.
NFA permanently barred Fejokwu from the
commodities industry and by extension the entire
finance industry — not just in the USA but worldwide.
CFTC rubber-stamped the draconian penalty and the
Third Circuit affirmed.
There is a large circuit split on the issue of
illogical coexistence of “willfulness” and good-faith
and this especially justifies this Court’s urgent
resolution. Additionally, this case exceptionally cries
for this Court’s intervention given that these issues
affect theoretically millions of entities — across
numerous industries — regulated by government
agencies and their private delegates. Further adding
to the exceptional importance of the issues coalesced
in this case, is the fact that the significant adverse
effects of these issues on regulatees domiciled in the
USA painfully reverberates for these individuals not
just in the USA but globally.

11

The questions presented are:
1. Willfulness & Good-faith: This Court held in
Taggart, that "willfulness” requires “no fair
ground of doubt” and in both Safeco and
McLaughlin, that “willfulness” requires measures
of bad-faith or recklessness. A 5-2 circuit split
exists over the illogical coexistence of “willfulness”
and good-faith. There is a 7-3 circuit split on
whether “willfulness” allows for a “reasonable
good-faith defense”. The 3rd Circuit has held that
“willfulness” imposes “strict liability”,
Does
“willfulness” require “bad-faith”, “no fair
ground of doubt”, and “recklessness” in the
civil regulatory context?
2. Delegated Powers: An agency delegated limited
authority to an SRO. The agency’s powers allow
its congressionally confirmed commissioners to
subpoena documents,
The subpoenas are
contestable and enforceable only by the judiciary.
The regulatee cannot be held liable for
contestation. Conversely, the SRO can demand
documents without subpoena and without a priori
judicial adjudication. Is it impermissible for an
SRO to assert greater power than the agency
from which its power derives?
3. Due-process: For weeks, the regulatee in goodfaith cooperated with the SRO’s unannounced
examination. For weeks, the SRO ignored the
regulatee’s clarification requests on the legitimacy
of a document request. The agency can issue
subpoenas, subject to a priori judicial adjudication.
The SRO does not refer the case to the agency. A
complaint is filed by the SRO 26-days before the
deadline. Is this a violation of the regulatee’s
protections under the Fifth Amendment?

Ill

The essence of this case as distilled in the
questions presented above is simple, urgent, and
critically important.
Will the NFA empowered by the rubber-stamp of
the CFTC, and the acquiescence and imprimatur of
federal courts in the name of “agency deference” be
allowed to continue to function as a supreme power
unto itself - by using its Rule 2-5 “Failure to
Cooperate”, as a catchall, omnipotent, limitless
weapon to target and destroy parties the NFA simply
does not like or wants out of their club, without any
pretense of due-process, fairness, or justice?
Is the NFA the Supreme Court of the United
States of America or is this Court, the Supreme Court
of the United States of America?
Fejokwu, pro se, respectfully requests that the
reviewing Justices of the Court do not reflexively,
posthaste deny this petition thinking that the petition
must be meritless or “lacking in credibility”, having
been submitted by a pro se petitioner,
Such
assessment would be erroneous, highly unfair and
contrary to the realization of justice, given this Court’s
unique position as the last bastion of justice in the
land — the only body in the land with supervisory
powers over agencies, appellate courts, and even
seemingly all-powerful SROs who possess a supreme
sense of their limited delegated powers. Fejokwu
respectfully beseeches your conscientious, careful,
and just review of this petition with the sole aim of
achieving justice. Thank you immensely.

IV

PARTIES TO THE PROCEEDINGS BELOW
Petitioner Chazon QTA Quantitative Trading
Artists, LLC, and Lawrence I. Fejokwu, were
appellants and Petitioners below. Supreme Court
rules prevent Chazon QTA Quantitative Trading
Artists, LLC from being a party in this case in this
Court as corporate entities must be represented by
legal counsel and not a pro se Petitioner.
Respondent Commodity Futures Trading
Commissions was appellee below at the Third Circuit.
CFTC also served as arbiter of the appeal filed by
Fejokwu against NFA.
National
Futures
Association
was
the
complainant at its own in-house NFA Hearing Panel;
appellee below during its own in-house appellate
process at the NFA Appeals Committee, and appellee
at the CFTC appeal.
LIST OF DIRECTLY RELATED
PROCEEDINGS
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
CHAZON QTA QUANTITATIVE TRADING
ARTISTS, L.L.C., and LAWRENCE I. FEJOKWU,
Petitioner
v.
COMMODITY FUTURES TRADING
COMMISSION,
Respondent.
Docket No. 17-2408
Date of Entry of Judgment: December 13, 2018

V

TABLE OF CONTENTS
Page
Questions Presented

1

Parties to the Proceedings Below

IV

List of Directly Related Proceedings

IV

Table of Authorities

x

Opinions Below

1

Jurisdiction

1

Statutes, Regulations, and Rules

1

Introduction

2

Statement of the Case

5

I.

Statutory and Legal Background

5

II

Factual Background

6

A.

Fejokwu voluntarily seeks withdrawal
from NFA membership under exemption
he was and remains qualified for; NFA
suddenly commences investigation and
Fejokwu fully cooperates, providing NFA
scores of documents.

B.

6

Fejokwu contests legitimacy of request of
one document, as it is not required to

VI

prove qualification for the exemption;
Fejokwu
simultaneously
seeks
clarification from NFA and CFTC
C.

7

Fejokwu receives no response from the
NFA to his clarification requests; instead
NFA suddenly and prematurely files
complaint 26-days before the deadline
they set

III......Procedural History

10

A.

Proceedings at NFA

10

B.

Proceedings at CFTC

12

C.

Proceedings at Third Circuit

12

Reasons for Granting the Writ
I.

8

13

The decision below exacerbates a recognized
split of authority by conflicting with decisions
of this Court and other courts of appeals,
therefore, necessitating this Court’s urgent
resolution.
13
A.

The decision contradicts this Court’s
precedents in determining willfulness in
the civil context,

13

Vll

B

The decision contradicts the decisions of
other courts of appeals, exacerbating a
mature conflict.

II

17

The decision below is wrong on critical legal
questions, thereby, weakening this Court’s
precedents and creating needless confusion in
the courts of appeals; this Court’s urgent
intervention is required,
20
A.

Willfulness cannot logically coexist with
good-faith; they are mutually exclusive,
and the presence of good-faith explicitly
precludes the finding of “willfulness”..20

B........The

document

request

lacked

legitimate regulatory purpose
C.

a
23

The NFA, a private SRO does not and
cannot have more power than the CFTC
—
a
congressionally
empowered
administrative agency from which it
derives its limited delegated powers. ..26

D

NFA violated Fejokwu’s due-process
rights in two ways - denying him proper
notice and a priori judicial adjudication.
32

III

The questions presented are exceptionally
important and have immense practical and

Vlll

policy significance far beyond this case,
therefore, necessitating this Court’s urgent
intervention to forestall peril to the class of
people subject to the civil regulatory system. 37
A.

Usurpation of undelegated powers by
SROs creates a regulatory abyss for
millions of regulatees and encourages
even more usurpation, if unchecked by
37

this Court.
B.

Due-process protection in the civil
regulatory context, especially with
respect to SROs is a recurring issue of
exceptional national importance

C.
IV.

40

This case presents an ideal vehicle..... 41

The NFA’s actions were not only arbitrary,
capricious,
and contrary to good-faith
regulatory objectives but mystifyingly strange
with an unavoidable odor making this Court’s
review imperative
42

Conclusion and Prayer

46

TABLE OF CONTENTS OF APPENDICES
1. Opinion of Third Circuit
2. Order of CFTC Denying
Reconsideration...........................

App.3a
Motion for
.......App.l2a

IX

3. Summary Affirmance of CFTC

App. 14a

4. Decision of NFA Appeals Committee...App. 16a
5. Decision of NFA Hearing Panel

App.35a

6. Order of Third Circuit Denying Petition for
Rehearing
App. 56a
7. Judgment of Third Circuit

App.58a

8. Reply Memorandum in Support of Petitioners’
Motion for Leave to File Supplemental
Appendix at the Third Circuit
App.60a
9. Order of Third Circuit Granting Petitioners’
Motion to File Suppl. Appendix
App.65a
10. Statutes, Regulations, and Rules Involved in
the Case
App.67a
11. Excerpts
Hearing.

of

Transcript

of
NFA
....App.77a

12. Petitioner’s Answer to NFA Complaint; NFA
Case No. 14-BCC-06
App.85a
13. Excerpts of NFA’s
Reconsideration

Reply to Motion for
App. 108a

14. Excerpts
of
Petitioner’s
Reconsideration by CFTC.......

Motion
for
..... App. 109a

X

TABLE OF AUTHORITIES
Page(s)
Cases
Alvarez Perez v. Sanford-Orlando Kennel Club, Inc.,
515 F.3d 1150 (11th Cir. 2008)
20
Andrews University v. Merchant (In re Merchant)
958 F.2d 738 (6th Cir. 1992).................................

18

Brinkman v. Dep’t of Corr., 21 F.3d 370 (10th Cir.
1994)............................................................................ 20
Broadus v. O.K. Indus., 226 F.3d 937 (8th Cir. 2000)
20
Budget Serv. Co. v. Better Homes of Virginia, 804
F.2d 289 (4th Cir. 1986)........................................

18

Chao v. A-One Med. Servs. Inc., 346 F.3d 908 (9th
Cir. 2003).................................................................... 20
Cuffee v. Atl. Bus. & Cmty. Corp., 901 F.2d 325 (3d
Cir. 1990);..................................................................... 18
Fowler v. Land Mgmt. Groupe, Inc., 978 F.2d 158
(4th Cir. 1992)........................................ .................. 20
Goichman v. Bloom, 875 F.2d 224 (9th Cir. 1989)...18
Herman v. Palo Grp. Foster Home, Inc., 183 F.3d 468
(6th Cir. 1999)
20
IKOS, NFA Case 05-BCC-026 (April 5, 2006)... 10, 33,
41

XI

Internal Revenue Serv. v. Murphy, 892 F.3d 29 (1st
Cir. 2018)
17, 18
Knaus v. Concordia Lumber Co., 889 F.2d 773 (8th
Cir. 1989)...................................................................... 18
Lorenzo v. S.E.C., 872 F.3d 578 (D.C. Cir. 2017).4, 41
Matter of Sherk (In re Sherk), 918 F.2d 1170 (5th Cir.
1990)
18
McLaughlin v. Richland Shoe Co., 486 U.S. 128
(1988)..................................................................... . ii, 14
Nelson v. Taglienti (In re Nelson), 994 F.2d 42 (1st
Cir. 1993)................................. .................................... 18
New York Currency Research Corporation, v.
Commodity Futures Trading Commission, 180
F.3d 83 (2nd Cir. 1999)
24, 31, 45
Price v. United States (In re Price), 42 F.3d 1068 (7th
Cir. 1994)
18
Quants Capital Mgmt., NFA Case No. 17-BCC-014
(Oct. 4, 2017)................................................................ 9
Reno v. Nat'l Transp. Safety Bd., 45 F.3d 1375 (9th
Cir.1995......................................................................... 24
Rodriguez v. Farm Stores Grocery, Inc., 518 F.3d
1259 (11th Cir. 2008).............................................

20

Safeco Ins. Co. of Am. v. Burr, 551 U.S. 47 (2007)
passim

Xll

Sessions v. Dimaya, 138 S. Ct. 1204; 200 L. Ed. 2d
549 (2018)
3, 4, 39
Singer v. City of Waco, Tex., 324 F.3d 813 (5th Cir.
2003).............................................................................. 20
Taggart u. Lorenzen, 139 S. Ct. 1795 (2019) ii, 15, 22,
41
United States v. Illinois Cent. R. Co., 303 U.S. 239
(1938)
.....14
United States v. Morton Salt Co., 338 U.S. 632 (1950)
38
United States v. Murdock, 290 U.S. 389 (1933)

14

Vahlsing v. Commercial Union Ins. Co., 928 F.2d 486
(1st Cir. 1991)
18
Vineland Fireworks Co. v. Bureau of Alcohol,
Tobacco, Firearms & Explosives, 544 F.3d 509 (3d
Cir. 2008)
16, 19
Statutes
28 U.S.C. § 1254(1)
7 U.S.C. §21

1
i, 5

7 U.S.C. § 21(b)(h)

1

7 U.S.C. § 21(i)(4)

12

7 U.S.C. § 6(g)

1

7 U.S.C. § 9(5)

1, 5, 26, 27

Xlll

7 U.S.C. § 9(8)
Age Discrimination in Employment Act
Commodity Exchange Act (“CEA”)

1, 27
21
5

Equal Pay Act

20

Fair Credit Reporting Act (FCRA)

14

Fair Labor Standards Act (FLSA)

14, 20

Section 6(c)(5) of the CEA

5, 26, 27

Other Authorities
Black’s Law Dictionary (11th ed. 2019)

17

Black’s Law Dictionary 1630 (8th ed. 2004)

16

CFTC Division of Enforcement, Enforcement
Manual,.............................................................

26

CFTC, Annual Report of the Division of
Enforcement, Nov. 2018........................

38

FINRA, 2018 FINRA Industry Snapshot

39

Johann Wolfgang von Goethe; "The Sorrows of Young
Werther", 1774 (as translated from German)
43
Matthew 10:24 New Living Translation (NLT) Holy
Bible, New Living Translation, copyright © 1996,
2004, 2015 by Tyndale House Foundation. Used by
permission of Tyndale House Publishers, Inc.,
Carol Stream, Illinois 60188.
31

XIV

Merriam-Webster Online

21

NFA Frequently Asked Questions

38

NFA, 2018 Annual Review

38

W. Keeton, D. Dobbs, R. Keeton, & D. Owen, Prosser
and Keeton on Law of Torts § 34, p. 212 (5th
ed.1984)
15
Willfulness, Good-faith, and the Fair Labor
Standards Act”, Nevada Law Journal, Fall 2011;
Emily Litzinger........................................................... 20
Rules
National Futures Association Rule 2—5: Cooperation
in NFA Investigations and Proceedings
passim
NFA Rule 3-14: Penalties

1,5

Regulations
17 C.F.R. § 10.41

1

17 C.F.R. § 10.68

1, 31

17 C.F.R. § 11.4
17 C.F.R. § 11.4(e)
17 C.F.R. § 4.13(a)(2)

1, 5, 27, 31
1, 27
passim

OPINIONS BELOW
Third Circuit: App.3a, reported at 757 Fed. Appx.
119.
CFTC and NFA: App.l4a - App.55a.
JURISDICTION
The Third Circuit issued its opinion on December
13, 2018 and denied rehearing on February 20, 2019.
App.56a. Justice Alito granted a filing extension to
July 20, 2019. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTES, REGULATIONS, AND RULES
The Due-process Clause states: “No person shall ...
be deprived of life, liberty, or property, without dueprocess of law.” U.S. Const, amend. V.
The relevant provisions of the Commodity
Exchange Act, 7 U.S.C. §1 et seq., and the NFA Rules
are Sections 2(a)(ll), 4g, 6(c)(5), 8(a)(5) of the CEA, 7
U.S.C. § 6(g), 7 U.S.C. § 9(5), 7 U.S.C. § 9(8); 7 U.S.C.
§ 21(b)(h); 17 C.F.R. § 10.41, 17 C.F.R. § 10.68, 17
C.F.R. § 11.4; 17 C.F.R. § 11.4(e); 17 C.F.R. §
4.13(a)(2); NFA Rule 2-5; and NFA Rule 3-14. They
are reproduced in the appendix at App.67a-76a.

2
INTRODUCTION
Fejokwu faces a Kafkaesque situation with
disastrous professional consequences — a draconian
professional death penalty.
It is a statement of fact, not hyperbole that when
one is professionally barred by a regulator from an
industry in which he has spent his entire career, and
the permanent bar leads to:
(i)

all other global regulators classifying him
as not passing the “fit and proper” person
test;

(ii)

industry participants not just in the USA
but globally refusing to interact with him
in any capacity - client, employee, or
principal; and

(hi)

other entities outside of that industry to
also exclude him, de facto and de jure from
those industries,

he has received a professional death penalty.
Worse, this ban while de jure limited to the USA
is a de facto global ban.1
Society - particularly the judiciary should not
diminish the grave severity of these circumstances.

1 By the doctrine of “recognized jurisdictions” regulators rely
on/defer to regulatory findings in other jurisdictions - and in
particular to USA regulators, who are considered the “lead
regulators”. Similarly, under the “fit and proper person test”,
banned persons are excluded by regulators outside the USA.

3
Indeed, Justice Gorsuch recently highlighted the
grave repercussions of civil penalties:
“In fact, if the severity of the consequences
counts ... shouldn’t we also take account of
the fact that today’s civil laws regularly
impose penalties far more severe than those
found in many criminal statutes? Ours is
a world filled with more and more civil
laws bearing more and more extravagant
punishments,
Today’s “ civil” penalties
include confiscatory
rather than
compensatory fines, ... remedies that
strip persons of their professional
licenses and livelihoods, ... . Some of
these penalties are routinely imposed and
are routinely graver than those associated
with misdemeanor crimes— and often
harsher
than
the
punishment
for
felonies. And not only are “punitive civil
sanctions . . . rapidly expanding,” they are
“sometimes more severely punitive than
the parallel criminal sanctions for the same
conduct.”2 (bold emphasis added; italics
emphasis present in original)

2 Sessions u. Dimaya, 138 S. Ct. 1204, 1229, 200 L. Ed. 2d 549
(2018) (Gorsuch, J., concurring in part and concurring in
judgment).

4
This case presents four issues that deserve this
Court’s resolution:
(i)

whether “willfulness” can logically coexist
with good-faith of the regulatee;

(ii)

whether the term “willful” imposes strict
liability;

(iii)

whether an administrative agency can
delegate greater power than it possesses
itself; and

(iv)

whether an SRO can violate the
fundamental tenets of the regulatee’s dueprocess rights - notice and a priori judicial
adjudication.

It also presents an issue of immense importance
as then Judge Kavanaugh eloquently declares:
“A finding of willfulness . . . matters because it
subjects [individuals] to much higher penalties . . . .
[such as] a lifetime suspension that prevents
[individuals] from ever again working in the securities
industry.”3
Furthermore, this case highlights the important
observation made by this Court in Dimaya — the
fundamental injustices that can arise when “arbitrary
power” “strip[s] persons of their professional licenses
and livelihood,”4 especially when that power is further
delegated to unaccountable, non-governmental
decisionmakers.

3 Lorenzo v. S.E.C., 872 F.3d 578, 597 (D.C. Cir. 2017)
(Kavanaugh, J., dissenting) (emphasis in original), aff'd on other
grounds, 139 S. Ct. 1094 (2019).
4 Dimaya, 138 S. Ct. at 1204, 1229.

5
STATEMENT OF THE CASE
I.

Statutory and Legal Background

The CFTC is a congressionally authorized agency
created by the Commodity Exchange Act (“CEA”).
NFA is authorized under 7 U.S.C. § 21 by the CFTC
as an SRO - the sole SRO for the futures industry.
Futures participants cannot participate in the US
commodities industry if they are not NFA members.
The CFTC has subpoena powers under Section
6(c)(5) of the CEA, 7 U.S.C. § 9(5), and 17 C.F.R. § 11.4.
NFA Rule 2-5 describes its “failure to cooperate”
doctrine. NFA Rule 3-14 is the NFA’s standardless
penalty rule.
The CFTC, through 17 C.F.R. §
4.13(a)(2) provides a small-pool exemption from
registration as a commodity pool operator (“CPO”) for
small pools and closely-held pools. The exemption is
granted under a self-executing notice.
Fejokwu
submitted a notice for exemption but was never
granted the exemption.
While the CFTC has subpoena powers derived
from statute, the CFTC has not delegated subpoena
powers to the NFA.

6

II.

Factual Background
A.

Fejokwu voluntarily seeks withdrawal
from
NFA
membership
under
exemption he was and remains
qualified
for;
NFA
suddenly
commences investigation and Fejokwu
fully cooperates, providing NFA scores
of documents.

Fejokwu is a Nigerian financial professional and
legal resident of the USA. In 2013, Fejokwu, a solooperator, managing solely their funds from a homeoffice voluntarily registered Chazon and himself with
the NFA. App.77a-78a.
Chazon operated two
commodity pools - Maria Desatadora Dos Nos Master
Investments and Maria Desatadora Umbrella Fund.
The sole participants of the Maria Funds were two
charitable foundations founded and endowed by
Fejokwu - Vision New Africa Foundation and Vision
New Nigeria Foundation. The foundations focused on
pan-African socioeconomic development. Id. The
foundations were also principals of Chazon. After
incurring investment losses, Fejokwu determined he
could no longer afford to maintain NFA registration.
Id. Since he and Chazon were exempt from
registration under the “small pool exemption,” 17
C.F.R. § 4.13(a)(2), he voluntarily decided to withdraw
from the NFA. Id.
For reasons that remain unknown, Fejokwu’s
request to withdraw from NFA registration prompted
the NFA to conduct a “focused scope” investigation.
NFA claimed the investigation was prompted by
Fejokwu’s trading losses but they were always aware
of the trading losses through Fejokwu’s quarterly
reports to the NFA. App.78a-79a, App.86a. Fejokwu

7
indisputably cooperated with the investigation for
weeks, providing NFA investigators with all the
financial records and related documents they
requested from Chazon, the Maria Funds, and the two
Vision Foundations that had funded the pools.
App.79a-84a
B.

Fejokwu contests legitimacy of request
of one document, as it is not required to
prove qualification for the exemption;
Fejokwu
simultaneously
seeks
clarification from NFA and CFTC.

NFA investigators then asked Fejokwu to
provide bank statements for Chazoneering, an
entirely separate company owned by Fejokwu that
was not an NFA member and did not trade commodity
futures. The NFA’s stated reason for asking for these
bank statements was to confirm that since
Chazoneering funded the Vision Foundations—and
ultimately the Maria Funds— if such funding was
“proprietary,”. However, the small-pool exemption
makes no reference to the word “proprietary”; it
merely seeks to confirm that all funds were
“contributions” of principals.
Fejokwu believed this request crossed a line for
two reasons:
1.

The NFA had confirmed that all
“contributions” to the Maria Funds were
from principals of Chazon - the Vision
Foundations. By statute, this instantly
proved qualification for the exemption.
Therefore, looking past the Vision
Foundations to a non-member entity —

8

Chazoneering - was a supra-statutory
excursion.
2.

Looking to Chazoneering, would only
confirm
that
Fejokwu
controlled
Chazoneering, and he provided operating
documents so confirming. Providing bank
statements showing where Chazoneering
got its money would show nothing about
whether the money in its accounts belonged
to Fejokwu: the mere fact that the money
was in accounts he fully controlled
confirmed the money was his.

Although Fejokwu was, initially, unwilling to
turn over sensitive financial statements of his outside
business, he made known in an April 8th email to the
Examiners that he wished to discuss the matter with
“members of the NFA legal team”. App.98a-99a
Fejokwu also contacted the CFTC for clarifications.
App.81a
C.

Fejokwu receives no response from the
NFA to his clarification requests;
instead NFA suddenly and prematurely
files complaint 26-days before the
deadline they set.

He received no response to his April 8th
clarification request. App.98a-99a A week later,
Fejokwu sent another email “requesting a meeting
with NFA compliance staff superiors to resolve the
matter.” Id. In that email, he explicitly stated that “I
reiterate that I remain cooperative and will continue
to cooperate with you.” Once again, he received no
response. Id. \ see also App.83a-84a (“I sent them two
follow-up emails saying, what’s going on? I would like

9
to meet with you again; I’d like to talk to your
superiors.”).
Instead, on May 6, 2014, the NFA examiners sent
Fejokwu a letter indicating that the NFA had
determined that Fejokwu “failed to cooperate
promptly and fully with NFA during the
examination.” App.82a, 99a Fejokwu was directed to
“respond in writing, by May 20, 2014, as to the
corrective action Chazon QTA will take or has taken
with respect to these items.” Id. Because Fejokwu was
in the UK at the time on a working sabbatical,
enrolled in a graduate program on the work of the
foundations he founded - MSc in Political Economy of
Development at the School of Oriental & African
Studies, University of London, he emailed the
examiner, assuring him that he would respond to the
examination notice as requested, but needed
additional time. Id. The examiners extended the
deadline until June 9, 2014. Id.; But despite granting
this extension, and despite Fejokwu’s repeated
assurances that he remained cooperative, the NFA
proceeded to file a formal complaint against Fejokwu
on May 15, 2014, 26-days before the extended
deadline and five days before the unextended
deadline. Id.
The NFA’s premature filing of its complaint adds
to the concern that Fejokwu was treated adversely
and disparately compared to similarly situated
members. In other cases, the NFA has exercised
patience and restraint in permitting members extra
time, to comply with its requests, even beyond stated
deadlines.5
5 See, e.g., Quants Capital Mgmt., NFA Case 17-BCC-014 (Oct.
4, 2017) (Respondent filed “preliminary response” to Exam

10
This expedited action is aberrant as the NFA
admits there is no fraud or improper sales practice:
“This is not a sales practice case, a fraud case.”
(emphasis added) App.83a. See diagram 1 on page 11.
III. Procedural History
A.

Proceedings at NFA

Fejokwu defended himself pro se before an NFA
hearing panel, maintaining that he had cooperated in
the examination by readily turning over all
documents pertaining to NFA members and balking
only when the Examiners went beyond their “focused
scope” to demand documents that the NFA had no
legitimate regulatory reason to request. App.77a-84a.
Importantly, he testified without contradiction that,
while he thought the NFA examiners had no valid
grounds to demand the document, he repeatedly tried
to elevate the issue to the NFA legal team in order to
obtain clarity on his obligations under NFA and CFTC
rules, requests that the Examiners ignored. Id.
The panel found that Fejokwu had “willfully
violated” NFA Rule 2-5 by refusing to provide
Chazoneering’s bank statements, App.53a, without
recognizing the undisputed evidence that Fejokwu
repeatedly asked to elevate this issue to the NFA and
the CFTC. The panel permanently barred Fejokwu
and Chazon from NFA membership. App.54a An NFA
appeal panel affirmed without oral argument.
App.33a.

Notice 35-days after deadline). See also IKOS, NFA Case 05BCC-026 (April 5, 2006).

11

Timelines
Timeline of due-process violation by failing to provide notice
— premature complaint. Complaint filed prior to notice
deadline.

Oja

NOTICE □EHDLINE

<NFA:

/-tNFA-

ga

NO RESPONSE

April 8, 20141 ^-»,NFA-

May 6, 2014 c°MpLniNT June 9, 2014

OS^^NORESPONSE

April 14, 2014

May 15, 2014

Timeline of four occasions where Petitioner offered the
NFA/CFTC the bank statement. All four offers were
refused.*

December 14, 2015
- May 18, 2016

May 5, 2015

June 30, 2017
July 13, 2016

I

v
Timeline of Petitioner's successful motion to add bank
statement to appellate record.

Ox

June 15, 2018

£L iiLUL

July 13, 2018
1

December 12, 2018
I

IX
Diagram 1
*Technically, there is a fifth time on March 26, 2014, albeit
unknown to Petitioner at the time.

12
B.

Proceedings at CFTC

Immediately after the Appeal Panel ruled,
Fejokwu hired counsel and immediately directed the
counsel to enter into settlement discussions with the
NFA to resolve the matter. Fejokwu offered to provide
the bank statement.
Exceedingly important to
Fejokwu was that he clear his name from the false
insinuation that the bank statement was not provided
to hide wrongdoing. App. 109a-110a The NFA initially
agreed to discuss the matter and the CFTC issued an
order extending deadlines to facilitate a settlement.
Id. To Fejokwu’s surprise, his counsel informed him
that after the CFTC issued the order, NFA refused to
even discuss settlement. Fejokwu then filed an appeal
to the CFTC. CFTC summarily affirmed the NFA
decision. Fejokwu filed a Motion for Reconsideration,
in which he reiterated his offer to provide the bank
statement Id. CFTC denied the motion. App.l2a-13a
C.

Proceedings at Third Circuit

Fejokwu sought review of the CFTC’s decision in
the Third Circuit under 7 U.S.C. § 21 (i)(4). Consistent
with his repeated offers to provide a copy of the
relevant bank statement, Petitioner successfully
moved to have the statement added to the appellate
record below App.65a-66a. Without holding oral
argument, the Third Circuit upheld the CFTC and
NFA decisions and upheld the NFA’s penalty: a
lifetime ban from the futures industry.

13
REASONS FOR GRANTING THE WRIT
Firstly, this Court has held for the past thirty
years that willfulness is context-specific and cannot
logically coexist with good-faith.
Secondly, in our constitutional system, powers
must flow in circumscribed, fashion. When Congress
delegates powers to an agency, they do not wish for
the agency to in turn delegate greater powers to a
private SRO. In similar vein, Congress does not wish
for a private SRO, on its own accord, to assume
greater powers than the agency or even Congress
itself. Congress cannot sanction any person in the
United States for refusing a document request, what
more a conditional refusal, without first issuing a
subpoena and submitting it to judicial adjudication.
Yet, this is what the NFA has done. This cannot
be the law.
“No person” in the United States, even those
compelled to register with a private SRO, “shall be
deprived of life, liberty, or property, without dueprocess of law”.
I.

The
decision
below
exacerbates
a
recognized split of authority by conflicting
with decisions of this Court and other
courts of appeals, therefore, necessitating
this Court’s urgent resolution.
A.

The decision contradicts this Court’s
precedents in determining willfulness
in the civil context.

For over three decades, in several different civil
contexts, this Court has held that the term “willful”

14
entails recklessness or requires at least some
conscious wrong or bad-faith.
In that McLaughlin v. Richland Shoe Co., held
that “willful” violations of the Fair Labor Standards
Act (FLSA) mean that “an employer either knew or
showed reckless disregard for the matter of whether
its conduct was prohibited by the statute. . . ,”6 The
Court noted that the term “willful” is “generally
understood to refer to conduct that is not merely
negligent.”7 This Court also stated that “willfully”
“often denotes that which is ‘intentional, or knowing,
or voluntary, as distinguished from accidental,’ and
that it is employed to characterize ‘conduct marked by
careless disregard whether or not one has the right so
to act.’”8
Likewise, under the Fair Credit Reporting Act
(FCRA), this Court held that “willful” violations of the
statute encompass reckless disregard of the law.9
The Court noted that it had “said before that ‘willfully’
is a ‘word of many meanings whose construction is
often dependent on the context in which it appears,’
[but that] where willfulness is a statutory condition of
civil liability, we have generally taken it to cover not
only knowing violations of a standard, but reckless
ones as well
”.10 The Court explained “[t]his
construction reflects common law usage, which
treated actions in ‘reckless disregard’ of the law as

6 McLaughlin v. Richland Shoe Co. 486 U.S. 128 (1988).
7 Id. at 133.
8 See also United States v. Illinois Cent. R. Co., 303 U.S. 239,
242—43 (1938) (citing United States v. Murdock, 290 U.S. 389,
394-95 (1933)).
9 Safeco Ins. Co. of Am. v. Burr, 551 U.S. 47, 52, (2007).
10 Id. at 57 (citations omitted).

15
‘willful’ violations.” 11 “Although efforts have been
made to distinguish” the terms “willful,” “wanton,”
and “reckless,” “such distinctions have consistently
been ignored, and the three terms have been treated
as meaning the same thing, or at least as coming out
at the same legal exit”.12 The Court in Safeco
expressly left open the question as to whether “goodfaith reliance on legal advice should render companies
immune” from willful violations.13
Just this Term, the Court noted that “willful” is
“a word the law typically does not associate with strict
liability but ‘“whose construction is often dependent
on the context in which it appears.”’”14 Although the
Court declined to resolve whether willfulness could
“support[]” strict liability,15 it did hold that “severe
remedies]” like civil contempt “should not be resorted
to where there is [a] fair ground of doubt as to the
wrongfulness of the defendant’s conduct.”16 Likewise,
“a party's good-faith, even where it does not bar civil
contempt, may help to determine an appropriate
sanction.”17
The Third Circuit here mistakenly departed from
these precedents and significantly lowered the
threshold for willfulness. The panel reasoned that:

11 Id. at 57.
12 Id. (citing W. Keeton, D. Dobbs, R. Keeton, & D. Owen, Prosser
and Keeton on Law of Torts § 34, p. 212 (5th ed. 1984)).
13 Id. at 70 n. 20.
14 See, Taggart v. Lorenzen, 139 S. Ct. 1795, 1804 (2019) (citing
Safeco).
15 Id.
16 Id. at 1802.
17 Id.

16
Fejokwu’s refusal may not have been in badfaith, but no doubt it was voluntary and
intentional — which makes it “willful” in the
civil context. See, e.g., Safeco Ins. Co. of Am.
v. Burr, 551 U.S. 47, 57 & n.9, (2007);
Vineland Fireworks Co. v. Bureau of Alcohol,
Tobacco, Firearms & Explosives, 544 F.3d
509, 517 (3d Cir. 2008) (“[T]he legal definition
of ‘willful’ ... is ‘[voluntary and intentional,
but not necessarily malicious.’ ” (quoting
Black’s Law Dictionary 1630 (8th ed. 2004) )
(alteration in original).
App.9a [757 F. App’x at 123].
This analysis is problematic in at least three
ways, two of which we discuss below and the third in
the next section.
Firstly, the Third Circuit misconstrues Safeco to
stand for the proposition that merely voluntary and
intentional conduct always satisfies the definition of
“willfulness.” Safeco did not hold that to be the legal
standard, nor the general meaning of the term, nor
the common law usage. Moreover, the Third Circuit’s
position would erect a standard of strict liability for
any objection to a single document request, regardless
of whether it was done in good-faith or in response to
an unjustified demand.
Secondly, the Third Circuit mistakenly relied on
only a sliver of Black’s Law Dictionary, while omitting
the gravamen of the definition.

17
The full provision reads as follows:
Voluntary and intentional, but not
necessarily malicious. • A voluntary
act becomes willful, in law, only
when it involves conscious wrong
or evil purpose on the part of the
actor, or at least inexcusable
carelessness, whether the act is right
or wrong.
The term willful is
stronger
than voluntary
or
intentional; it is traditionally the
equivalent of malicious, evil, or
corrupt.
Black’s Law Dictionary (11th ed. 2019) (emphasis
added).
B.

The decision contradicts the decisions
of
other
courts
of
appeals,
exacerbating a mature conflict.

The panel’s decision illuminates divisions among
the lower courts about the definition of “willful” in the
civil context. Recently, the First Circuit explicitly
identified a 7-3 circuit split about the definition of the
term and whether it allows for a “reasonable goodfaith defense.”18 “[S]even circuits [including the First,
Third, Fourth, Seventh, Eighth, Ninth, and Eleventh]
had stated that the phrase ‘willful violation’, which
concerns stays of collection activity once a debtor files
for bankruptcy, applied whenever a creditor knew of
an automatic stay and violated it.”19 (emphasis
added). Before 1998, “a majority of the circuits, had
18 See Internal Revenue Serv. v. Murphy, 892 F.3d 29, 47 (1st Cir.
2018) (Lynch, J., dissenting).
19 Id.

18
held that a willful violation occurs when an individual
knows of the automatic stay and takes an intentional
action that violates the automatic stay.”20
By contrast, at least three circuits — the First,
Fifth, and Sixth Circuits — have “held that a colorable
legal argument of no violation was sufficient to show
that a violation 0 was not willful.”21 There is a
holding that there was no willful violation because,
inter alia, “it was reasonable for [the creditor] to
believe that the property was not part of the
bankruptcy estate”22; a holding that a “[violation of
[a] stay ... is not a strict liability tort.”23; a holding that
a creditor did not “willfully violate [] the automatic
stay” because her legal position that the stay did not
apply was “arguable”24,; a holding that a university’s
violation of an automatic stay “was not willful”
without holding that the university did not know of
the stay25. As Judge Lynch stressed, “[s]even out of
20See Internal Revenue Serv. v. Murphy, 892 F.3d at 36 (1st Cir.
2018) (citing Jove Eng'g, Inc. v. IRS (In re Jove Eng'g, Inc.), 92
F.3d 1539, 1555 (11th Cir. 1996); Price v. United States (In re
Price), 42 F.3d 1068,1071 (7th Cir. 1994); In re Crysen/Montenay
Energy Co., 902 F.2d at 1105; Cuffee v. Atl. Bus. & Cmty. Corp.
(In re Atl. Bus. & Cmty. Corp.), 901 F.2d 325, 329 (3d Cir. 1990);
Knaus v. Concordia Lumber Co. (In re Knaus), 889 F.2d 773, 775
(8th Cir. 1989); Goichman v. Bloom (In re Bloom), 875 F.2d 224,
227 (9th Cir. 1989); Budget Serv. Co. v. Better Homes of Virginia,
804 F.2d 289, 292-93 (4th Cir. 1986)).
21 Id. at 48 (emphasis added).
22 See also Nelson v. Taglienti (In re Nelson), 994 F.2d 42, 45 (1st
Cir. 1993).
23 Vahlsing v. Commercial Union Ins. Co., 928 F.2d 486, 490 (1st
Cir. 1991).
24 Matter of Sherk (In re Sherk), 918 F.2d 1170, 1178 (5th Cir.
1990) abrogated on other grounds by Taylor v. Freeland & Kronz,
503 U.S. 638, 643, 112 S.Ct. 1644, 118 L.Ed.2d 280 (1992).
25 Andrews University v. Merchant (In re Merchant), 958 F.2d
738, 740, 742 (6th Cir. 1992).

19
ten is a circuit split, not a clear consensus.” Id. See
also Safeco, 551 U.S. at 55-56 (noting the Ninth
Circuit’s exception to “willfully” when an individual
“‘diligently and in good-faith attempted to fulfill its
statutory obligations’ and came to a ‘tenable, albeit
erroneous, interpretation of the statute.’”); id. at 70 n.
20 (“[w]hile we do not foreclose this possibility, we
need not address the issue here”).
Even the Third Circuit’s Vineland decision,
which the panel below relied upon, itself “noted that
[the court’s previous] language had created a
‘supposed conflict,” about the meaning of “willfulness”
and whether it “required a ‘bad purpose’ . . . .” for a
finding of willfulness. 544 F.3d at 519 n.18.
While this circuit split arises under various
federal statutes, it underscores the broader disarray
that has emerged about a term that is common in civil
law and essential to the administrative state. And
even assuming arguendo that a “willful” violation can
somehow mean something entirely different in the
securities context than in the bankruptcy context, at
bottom, the Third Circuit’s strict liability approach
puts it even more out of step with its sister circuits.

20
II.

The decision below is wrong on critical
legal questions, thereby, weakening this
Court’s precedents and creating needless
confusion in the courts of appeals; this
Court’s urgent intervention is required.
A.

Willfulness cannot logically coexist
with good-faith; they are mutually
exclusive, and the presence of goodfaith explicitly precludes the finding of
“willfulness”.

The Fifth, Sixth, Ninth, Tenth, and Eleventh
Circuits have ruled that “willfulness” cannot logically
coexist with good-faith26, while the Fourth and Eight
Circuits have held that “different burdens of proof
allow for both findings to co-exist”. 27 This split exists
in the civil regulatory context albeit with specific
reference to the FLSA.28 The Eleventh Circuit based
its ruling in the FLSA context on two other regulatory
contexts in which willfulness cannot exist with goodfaith — the Equal Pay Act and the Age Discrimination
26 See Alvarez Perez v. Sanford-Orlando Kennel Club, Inc., 515
F.3d 1150, 1166 (11th Cir. 2008); see also Brinkman v. Dep’t of
Corr., 21 F.3d 370, 372-73 (10th Cir. 1994); Chao v. A-One Med.
Servs. Inc., 346 F.3d 908, 920 (9th Cir. 2003); Herman v. Palo
Grp. Foster Home, Inc., 183 F.3d 468, 474 (6th Cir. 1999); Singer
v. City of Waco, Tex., 324 F.3d 813, 822-23 (5th Cir. 2003); See,
e.g., Rodriguez v. Farm Stores Grocery, Inc., 518 F.3d 1259, 1274
(11th Cir. 2008); as cited in “Willfulness, Good-faith, and the Fair
Labor Standards Act”, Nevada Law Journal, Fall 2011; Emily
Litzinger.
27 See Broadus v. O.K. Indus., 226 F.3d 937, 944 (8th Cir. 2000);
Fowler v. Land Mgmt. Groupe, Inc., 978 F.2d 158, 162 (4th Cir.
1992).
28 See, “Willfulness, Good-faith, and the Fair Labor Standards
Act”, Nevada Law Journal, Fall 2011; Emily Litzinger.

21
in Employment Act. This gives credence to the theory
that there should be a universal willfulness-cum-goodfaith doctrine for all civil regulatory contexts. This
Court’s resolution of this ongoing issue affecting the
tremendous number of people/entities in the civil
regulatory class is urgently needed.
The discussion below of Fejokwu’s case makes
poignantly manifest how the illogicality of willfulness
co-existing with good-faith can create outcomes that
are equally illogical and unjust in other civil
regulatory domains.
Rule 2-5 does not require NFA members to
provide the NFA with anything it might ask for - it
requires them to “cooperate” with an NFA
examination. A willful violation of Rule 2-5, then,
plainly means a willful refusal to cooperate. This
requires something more than showing that Fejokwu
voluntarily questioned whether the NFA had a
legitimate reason for requesting a document. It
requires showing that Fejokwu intentionally refused
to provide a document they knew (or should have
known) the NFA had a legitimate reason for
requesting. If a person in good-faith, genuinely and
reasonably believes that an administrative agency
has no valid basis for asking for a document or record,
then refusing to provide it cannot be a willful failure
to cooperate: cooperation necessarily entails some
recognition that the agency’s request has a legitimate
basis.29

29

Merriam-Webster
Online,
https://www.merriamwebster.com/dictionary/cooperate (“cooperate”: “to act or work
with another or others[;] act together or in compliance”).

22
The existence of “a fair ground of doubt”30 as to
the legitimacy of the request means the action is not
“willful”. Willfulness requires the presence of badfaith or reckless acts. By logical deduction, good-faith
cannot logically co-exist with willfulness.
Even if the Court concludes in hindsight that the
NFA’s request for Chazoneering’s bank statements
was justified, Fejokwu’s failure to provide them was
not a willful refusal to cooperate because he was
continuing to ask for clarification from the CFTC and
NFA regarding the legal basis for its request.
Fejokwu repeatedly asked to speak with NFA
supervisors or lawyers, to understand whether the
NFA’s interpretation of CFTC rules was legally
correct. The Third Circuit recognized this in its
opinion. App.5a (“When the NFA still insisted [on
receiving the Chazoneering bank statements],
Fejokwu asked to discuss the request with NFA
lawyers or supervisors.”) But rather than clarifying
Fejokwu’s obligations, the NFA rushed to charge him
with “failing to cooperate”. Indeed, at the time when
the NFA brought charges against Fejokwu for
willfully violating Rule 2-5, he still had 26-days to
“respond in writing” to the NFA’s notice. App.83a-84a;
98a-99a
A reasonable person in Fejokwu’s position would
not believe that he was failing to cooperate with an
NFA investigation where he was actively soliciting
clarification from the NFA legal department
regarding the basis for the NFA’s requests. This also
goes to the various objective indicia of Mr. Fejokwu’s
good-faith, including the timing, narrowness, tone,
and consistency of his objection to the NFA’s
30 See, Taggart, 139 S. Ct. at 1795, 1804.

23
document request. Refusing to cooperate requires
more than simply asking to speak with a supervisor.
Were it otherwise, then anyone who even tepidly
pushes back against or understandably questions an
NFA investigation would be immediately chargeable
with willful violation of NFA Rule 2-5 and subject to a
lifetime ban.
The Third Circuit fundamentally misunderstood
NFA Rule 2-5 and affirmed the CFTC’s and NFA’s
decisions under an incorrect legal standard.
B.

The document request lacked
legitimate regulatory purpose.

a

Once the correct standard is applied, there are
two reasons why a reasonable NFA member in
Fejokwu’s position would not believe that refusing to
provide Chazoneering’s bank statements was a
violation of NFA Rule 2-5.
Firstly, the NFA’s justification for why the
statements were necessary does not make sense.
Fejokwu had filed a notice of exemption from NFA
registration under the small-pool exemption. This
exemption applies to commodities pools with less than
$400,000 in capitalization,
For the purposes of
determining
eligibility
for
this
exemption,
“contributions” from “the pool’s operator, commodity
trading advisor, and the principals thereof’ are
excluded. It is undisputed that the Maria Funds had
only two investors - the two Vision Foundations.
App.39a, 84a It is also undisputed that the two Vision
Foundations are principals of the CPO, Chazon.
App.36a Therefore, by the plain meaning of the smallpool exemption, Fejokwu qualified for the exemption.
NFA, therefore, had no “legitimate regulatory

24
purpose” to request for further documents to confirm
Fejokwu’s qualification for the exemption. This is a
fundamental legal principle: “[T]he plain meaning of
language in a regulation governs unless that meaning
would lead to absurd results.”31.
Secondly, NFA, later claimed that they needed to
“peel the onion” App.82a to determine “ultimate” 1
contributors. The governing statute, 17 C.F.R. §
4.13(a)(2) does not contain a “peel the onion” test. The
statute also does not contain the word “ultimate” - the
statute is concerned only with “contributions”.
Therefore, the NFA had no legitimate regulatory
purpose to demand of Fejokwu the bank statement to
prove qualification for an exemption he had already
proven his qualification.
Even, if one were to indulge the NFA, and apply
their unlawful “peel the onion” test, the NFA’s
justification for why the statements were necessary
still does not make sense.
Because Fejokwu was a principal of Chazon,
Fejokwu’s contributions of his own money do not count
against this $400,000 threshold. It is undisputed that
all the money in the two commodities pools operated
by Fejokwu ultimately came from Chazoneering.
App.84a. Fejokwu also provided evidence that he had
sole control over Chazoneering. The NFA conceded
this fact before the NFA panel: It emphasized that
“Fejokwu controls [Chazoneering] 100 percent.”
App.82a. The CFTC nowhere challenged this fact
below. Thus, it is undisputed that all the money in
Chazon’s commodity pools came from accounts 100%
31 Reno v. Nat'l Transp. Safety Bd., 45 F.3d 1375, 1379 (9th
Cir.1995). See, also New York Currency Research Corp. v. CFTC,
180 F.3d 83, 88-89 (2d Cir.1999).

25
controlled by Chazon’s principal, Fejokwu. This
established his entitlement to the small pool
exemption. Because he controlled Chazoneering’s
account, the money contributed to the commodity
pools from Chazoneering was Fejokwu’s money and
exempt from the $400,000 calculation.
The Panel concluded that the NFA “had
legitimate grounds to confirm that Chazoneering’s
investment was in fact proprietary—that is,
legitimate business income of Chazoneering (and thus
Fejokwu) and not merely customer contributions
funneled through Chazoneering to invest in the Maria
Funds without proper registration.” App.8a-9a The
Panel’s interpretation of “proprietary” as “legitimate
business income” has no support in 17 C.F.R. §
4.13(a)(2). Indeed, the regulation does not even
contain the word “proprietary.” All that the exemption
asks is whether the money was “contributjed]” by one
of the CPO’s principals. Since it is undisputed that
the money in Chazon’s pools ultimately came from a
company that Fejokwu “100% controlled,” it was his
money. Nothing in CFTC rules requires Fejokwu to
demonstrate that the money in his accounts was
“legitimate business income”—whatever that means.
And even if that somehow were required,
Chazoneering’s bank statements would not prove the
money was “legitimate business income”32 or whether
it was “customer contributions funneled33 through

32 Given the false and defamatory insinuations, Fejokwu
emphatically states that his money was from “legitimate
business income”.
33 The additional defamatory insinuation that Fejokwu was
“funneling” customer funds through Chazoneering is ridiculous.
Where have all these mystery “customers” been for the past nine

26
Chazoneering” as the Court speculated: The records
would simply show transfers of money (or the lack of
them) into Chazoneering’s account. Whether these
transfers were “legitimate business income” or
customer contributions would not be apparent from
the statements.
Because Chazoneering’s bank
statements were not relevant to whether Fejokwu
were entitled to the exemption, Fejokwu were not
refusing to cooperate with the NFA—much less
willfully so—by declining to provide them.
C.

The NFA, a private SRO does not and
cannot have more power than the
CFTC — a congressionally empowered
administrative agency from which it
derives its limited delegated powers.

The CFTC’s own enforcement manual states that
the CFTC operates under delegated power: “The
CFTC’s power to subpoena testimony and documents
in connection with its investigatory proceeding
derives from Section 6(c)(5) of the CEA, 7 U.S.C. §
9(5).” 34 (emphasis added) Testifying to the statutory
supremacy of this issue, the enforcement manual
relies not on CFTC opinion/policy but on their
governing statute.

years? There has not been the emergence of any customer because none exists - what more a single customer complaint!
34 See, CFTC Division of Enforcement, Enforcement Manual
available at https://www.cftc.gov/LawRegulation/Enforcement/
EnforcementManual.pdf, sections 5.4.2 and 5.4.2.2, dated May 8,
2019.

27
The CFTC enforcement manual confirms the
limits of its delegated powers:
Whether seeking...the production of
documents, or both, CFTC investigative
subpoenas are not self-enforcing. Pursuant
to delegated authority, the Director of the
Division, with the concurrence of the
General Counsel ..., may bring an action in
[a] ... district court of the United States to
enforce any subpoena... . See 7 U.S.C. §
9(8); 17 C.F.R. § 11.4(e). (emphasis added)35
By logical conclusion, it is impossible, therefore,
for a delegated body to delegate greater powers than
it possesses to another party. In similar vein, it is
illegal for the recipient of delegated powers to assume
even greater powers than it has been delegated. The
NFA wishes for its document requests to assume selfenforcing powers. NFA cannot assert self-enforcing
powers that formal CFTC subpoenas operating under
statutory authority do not have. NFA Rule 2-5 cannot
be more powerful than the statutory trio of Section
6(c)(5) of the CEA, 7 U.S.C. § 9(5), and 17 C.F.R. §
11.4.
That cannot be the law.

See diagrams 2-4 on page 28-30.

35 Id.

28

Statutory Trio vs. NFA Rule 2-5
NFA Rule 2-5 cannot be more powerful than the statutory trio
of Section 6(c)(5) of the CEA, 7 U.S.G. § 9(5), and 17 C.F.R. §
11.4. This cannot be the law.
In law - de jure - this is what it should be.

In fact — de facto - this is what it currently is in practice.

m
•CF.Rj

RULE E*5

C

)
Diagram 2

This cannot be the law.

29

Hierarchy of Derivation of Powers

■ C.F.R

\

\

Hierarchy of Powers

A
Diagi-am 3
It is both illogical and impermissible for an SRO - the NFA to assert greater power than the agency - the CFTC — from
which its power derives.
It cannot be the law that NFA is more powerful than the
CFTC or more powerful than Congress, with respect to
document requests of regulatees.

30

Statutory Powers

fhub
flllilTITIllIII

POWER LEVEL

HIGH

De jure
—

lilllililil
POWER LEVEL

HIGH

Diagram 4

De facto

In law, de jure, the US Congress has more power than the
CFTC and the NFA.
In practice, de facto, NFA has more power than the CFTC
(and even Congress) with respect to document requests of
regulatees in the commodities industry.
This is not the intent of the US Congress. This Court
should not allow this usurpation of powers to stand.
The current practice cannot be the law.

31
If the NFA were relieved of the obligation to
justify its document demands in advance, it would
have greater investigatory power than the CFTC,
from which its regulatory power derives. Such a
scenario is not only illogical and contrary to
congressionally sanctioned statutory intent, it is also
contrary to natural principles throughout human
history - at least to biblical times.
Consider, Jesus speaking to His twelve apostles
during His Commissioning of the Twelve Apostles, as
he sent them out with instructions - with “delegated
powers” - in regulatory parlance.
Jesus
commissioned the Twelve:
“Students are not greater than their
teacher, and slaves are not greater than their
master.”
See, Matthew 10:24, New Living Translation
(NLT) Holy Bible.
The NFA cannot have greater powers than the
CFTC. While the CFTC has broad investigatory
power, including subpoena power, it must still set
down in writing the scope of the investigation and the
authority under which it is being conducted. 17 C.F.R.
§ 11.4.
In using its subpoena powers, even the CFTC
must follow certain rules36:
“[T]he Commission has ability to use its
subpoena power, 17 C.F.R. § § 10.68 and 11.4. Yet,
.... rather than following these rules, .... the
Commission, in a fit of pique ... moved immediately to
an expedited procedure.”

36 See, New York Currency Research Corporation, 180 F.3d 83.

32
D.

NFA violated Fejokwu’s due-process
rights in two ways - denying him
proper notice and a priori judicial
adjudication.

Due-process protections are as important in the
civil regulatory framework, as in the criminal context.
This may not be apparent in a strict legal sense, but
in a practical sense it is. This Court has recently
echoed this position:
“Why, for example, would due-process
require Congress to speak more clearly
when it seeks to deport a lawfully resident
alien than when it wishes to subject a citizen
to indefinite civil commitment, strip him of
a business license essential to his
family’s living, or confiscate his home? I
can think of no good answer.” 37
It is imperative that SROs extend to regulatees
the full protection of due-process rights. This did not
happen in this case in two important ways.
Firstly, the NFA denied Fejokwu proper notice.
The NFA on May 6, 2014 sent Fejokwu a letter
indicating its examination findings and providing him
a deadline to respond. Yet, they filed a complaint, 26days before the deadline. Fejokwu before the CFTC
argued that this was a violation of his due-process
rights. App.l09a The NFA in their reply did not
dispute that they prematurely filed the complaint but
sidestepped the issue by merely stating that “ [i]t is
difficult to discern how these circumstances
supposedly denied Chazon and Fejokwu due-process.”
App 108a That sounds like quite an emphatic defense.
37 Dimaya, 138 S. Ct. at 1204, 1229.

33
The NFA knows that they did in fact deny Fejokwu
his due-process rights - and worse they did so in
disparate fashion compared to other NFA cases.38
Secondly the NFA denied Fejokwu his dueprocess rights to a priori judicial adjudication. This is
a direct result of NFA’s unauthorized usurpation of
greater powers than the CFTC, from which it derives
its powers. The NFA stressed at the hearing and in
their decisions that Rule 2-5 was the “linchpin” of
their regulatory scheme. App.31a They lamented that
they lacked subpoena powers and therefore, could not
tolerate any violation of Rule 2-5. This is a Red
Herring.
Yes, the NFA does not have subpoena powers,
but they can refer cases at any time to their superior
who does have subpoena powers - the CFTC. If the
NFA, were genuinely interested in the bank
statement, they had multiple options:
•

respond
requests;

to

Fejokwu’s

clarification

•

allow Fejokwu to respond to the notice;
and

•

failing which, refer the matter to the
CFTC.

At the CFTC, Fejokwu would be entitled to a
multi-step document request protocol.
See diagrams 5-7 on pages 34-36.

38 See, Quants Capital Mgmt. See also, IKOS.

34

Due-Process Protections
The inferior NFA offers less due-process protections than the
superior CFTC.
/
\

II
Statutory document
request procedure.

Right to “meet and
confer” to resolve
disputes.
Subpoena powers.

sr

<NEV

□

See, § 4g of CEA
and 7 U.S.C. § 6g

0^
See, 17 C.F.R.
§ 10.41.

0"

□
□

See, 17 C.F.R.
§ 10.68, 17 C.F.R.
§ 11.4, §§ 2(a)(ll)
and 8a(5) of the
CEA.
Independent Judicial
adjudication of
subpoena.

Sanctions issued
only after
independent judicial
adjudication.

\3r

□

See, 17 C.F.R.
§ 11.4(e).

0"

□

See, 17 C.F.R.
§ 11.4(e).

Diagram 5

35

Protocol for Document Requests

Step 1:
Document request.
If dispute go
to Step 2.
l=jl ^

*
Step 2:
Review dispute.
Attempt to resolve.

Step 1: Document request.
If dispute arises over
production of documents go
to Step 2.
|Cl------

\

*
I
Step 3: Issue subpoena
if resolution of
dispute fails.

CQV

\

Step 4:
Contest Subpoena in
District Court.
Court adjudicates.

\
Step 5:
If Court demands
compliance and there
is none, only then
can CFTC and
Court sanction.

\

Step 2: Sanction party.

\

H

V:

A

Diagram 6

The CFTC, the body with greater powers offers more
due-process protections via a five-step process. NFA, the body
with lesser powers, offers essentially no due-process
protections in its two-step process. The juxtaposition of the
CFTC’s multi-step protocol with NFA’s two-step protocol is
stark.

36

Statutory Powers
vs. Due-Process Protections
SP

r

DPP
Diagram 7
In theory, the entity with the most statutory powers (SP)
should offer the least due-process protection (DPP).
In the NFA-CFTC dynamic, we have a contradiction, an
illogical artifice.
The entity with the least powers (NFA) has the least
due-process protections, while the entity with highest
powers has the highest due-process protections.
This cannot be the law.

DPP: Due-Process Protections SP: Statutory Powers.

37
The NFA purposefully, did not respond to
Fejokwu’s repeated clarification requests and did not
refer the matter to the CFTC. Instead, NFA rushed to
prematurely file the complaint. By so doing, they
denied Fejokwu all the due-process protections he
would have under the CFTC’s protocol. Why should
Fejokwu have less due-process protections, essentially
no protections, in the protocol of the inferior member
of the regulatory duo of CFTC-NFA? This cannot be
the law or congressional intent. It is a fundamental
violation of Fejokwu’s due-process rights.
III. The questions presented are exceptionally
important and have immense practical and
policy significance far beyond this case,
therefore, necessitating this Court’s urgent
intervention to forestall peril to the class of
people subject to the civil regulatory
system.
A.

Usurpation of undelegated powers by
SROs creates a regulatory abyss for
millions of regulatees and encourages
even more usurpation, if unchecked by
this Court.

The NFA’s standard for willfulness and far-flung
view of its own powers presents questions of
exceptional national importance.
Entities regulated by unaccountable SROs in the
USA are at risk of permanently losing their
professional livelihoods not just in the regulated
sector but numerous other .sectors, and not just in the
USA, but globally.

38
Under the NFA and CFTC’s position they could
ask for whatever documents NFA wished, providing a
ridiculous justification or even no justification at all.
Anyone who refused to provide requested documents
would be treated as willfully violating Rule 2-5, so
long as the NFA could conjure a post-hoc rationale for
why it needed the documents.
This is not and cannot be the law.
Furthermore, a cornerstone of the civil justice
system is that a respondent may seek to contest a
subpoena by seeking to question, quash, or modify it.
An administrative subpoena is enforceable if the
information sought “is within the authority of the
agency, the demand is not too indefinite and the
information sought is reasonably relevant”.39
These issues have significant ramifications upon
the securities profession and the financial industry.
The NFA alone regulates 4,000 member firms and
55,000 associate members throughout the United
States.40 The CFTC and NFA bring dozens of
enforcement actions per year.41 The NFA’s position
could readily apply to other self-regulatory
organizations such as the Financial Authority
Regulatory Authority (FINRA), which governs over

39 See generally United States v. Morton Salt Co., 338 U.S. 632,
652 (1950).
40
See,
NFA
Frequently
Asked
Questions,
https://www.nfa.futures.org/BasicNet/FAQ.aspx.
41 See CFTC, Annual Report of the Division of Enforcement, Nov.
2018, at 7, https://www.cftc.gov/sites/default/files/2018-ll/ENF
AnnualReportlll418_0.pdf; NFA, 2018 Annual Review, at 16,
https://www.nfa.futures.org/about/annual-reviewsfiles/2018_AnnualReview.PDF.

39
630,000 registered representatives comprising over
$308 billion in yearly revenue.42
Moreover, there is no logical limiting principle to
the CFTC’s position that would distinguish it from
other administrative agencies or foreclose them from
assigning greater subpoena powers to others than
they themselves possess under statute. Reiterating,
Justice Gorsuch in Dimaya, this sort of “arbitrary
power” can “strip persons of their professional licenses
and livelihood”, as it has here.43 That is particularly
true when the power to demand documents is
delegated to unaccountable, non-governmental
officials. Here, the decisionmakers at the NFA were
not federal employees, nor elected officials, nor in any
way tied to a responsive branch of government.
Their power to demand documents, under the
threat of professional ruin, is a gigantic jump across
the fair and just regulatory divide. In making this
gigantic jump, the NFA knowingly pushes regulatees
into the professional abyss, from where they cannot
extract themselves, save for this Court’s immediate,
wise intervention. The Court should intervene to
circumscribe structural limits to the powers of SROs.

42 See, e.g., FINRA, 2018 FINRA Industry Snapshot, at 3, 21,
https://www.finra.org/sites/default/files/2018_finra_industry_sn
apshot.pdf.
43 Dimaya.

40
B.

Due-process protection in the civil
regulatory context, especially with
respect to SROs is a recurring issue of
exceptional national importance.

The NFA refused to respond to Fejokwu’s
clarification requests. They refused to refer the
matter to the CFTC, the agency with subpoena powers
and by so doing the NFA denied Fejokwu his dueprocess protections. Instead, the NFA in shortcircuiting the subpoena process, adopted their own
doctrine where document requests are self-enforcing.
If document requests by SROs or agency subpoena
procedures could never be challenged without
constituting a “willful” violation of the law, they would
run into serious constitutional problems.
In another securities case involving “willfulness,”
then-Judge-Kavanaugh encapsulated the key dueprocess principles that had been “contravene [d]”
there:
A finding that a defendant possessed the
requisite mens rea is essential to preserving
individual liberty. See, e.g., Morissette u.
United States, 342 U.S. 246, 250-51, 263 Q
(1952) []. As Justice Jackson explained: “The
contention that an injury can amount to a
crime only when inflicted by intention is no
provincial or transient notion. It is as
universal and persistent in mature systems
of law as belief in freedom of the human will
and a consequent ability and duty of the
normal individual to choose between good
and evil. A relation between some mental
element and punishment for a harmful act is
almost as instinctive as the child's familiar

41
exculpatory ‘But I didn't mean to.’ ”
Morissette, 342 U.S. at 250-51, 72 S.Ct. 240
(footnote omitted).
Lorenzo at 598.

C.

This case presents an ideal vehicle.

On top of the mature circuit split, this case
presents an ideal vehicle for the Court to resolve
questions it has previously left open, including about
the role of good-faith in assessing willful violations,44
and the propriety of imposing a standard of strict
liability.45
Many of these types of cases never reach the
circuit appellate level, what more this Court. SROs
and agencies tend to look for easy wins. They target
the least powerful - solo-operators like Fejokwu,
lacking experience, lacking resources, lacking inhouse legal and compliance staff. This case would
never have arisen if Fejokwu were a multi-billion,
even a multi-million-dollar hedge fund. 46 Even if it
did arise, it would never have faced such a Rock of
Gibraltar, resisting all attempts at peaceful
settlement, which has now resulted in the case
arriving at this Court. This is not hyperbole; see
Diagram 1 on page 11.
SROs and agencies use their cases against the
least powerful regulatees like Fejokwu as their “ideal
vehicle” to expand their powers and establish unjust,
illogical precedents.

44 See, Safeco, 551 U.S. at 70 n. 20.
45 See, Taggart, 139 S. Ct. at 1804.
46 See, IKOS.

42
This Court, with its supreme powers, should use
this case as the “ideal vehicle” to limit the powers of
the NFA and CFTC. There may never be another
weak regulatee to present this Court another
opportunity. Most weak regulatees, even without
Fejokwu’s precedent would have surrendered long
time ago. Now, with the precedent of Fejokwu’s sixyear battle, it will take ultra-heroic courage for
anyone to fight a similar battle in the future.
Fejokwu has fought valiantly for six years to
obtain vindication of his innocence, clear his name,
and regain the opportunity to use his God given
talents to pursue his dream of achieving succes fou in
his career. Fejokwu’s middle name Ikemefune when translated from Igbo means “My efforts shall not
be in vain" This Court should use this case as the
“ideal vehicle” to ensure that for the sake of not just
Fejokwu but for all the regulatorily oppressed weak
regulatees in America, present and future, Fejokwu’s
efforts would not have been in vain.
IV. The NFA’s actions were not only arbitrary,
capricious, and contrary to good-faith
regulatory objectives but mystifyingly
strange with an unavoidable odor making
this Court’s review imperative.
It is mystifying why a document dispute between
a solo-operator and the agency-SRO duo is now before
the highest court in the land. Why was this matter
not resolved amicably at any point during the past six
years?

43

Johann Wolfgang von Goethe wrote:
“Misunderstandings
and
neglect
occasion more mischief in the world
than even malice and wickedness.”47
In the Goethean view, it means by logical
contradiction, that when misunderstanding and
neglect are not present that malice and wickedness
are present.
If there was a “misunderstanding” on Fejokwu’s
part, that would be understandable. He was a solooperator with no compliance or legal department or
even outside legal counsel undergoing the first
regulatory examination of his career — on an
unannounced basis.
Compounding matters, the
regulator also charged with the duty of educating
regulatees, repeatedly refused to respond to his
repeated requests for clarification.
After the hearing panel’s decision, despite
Fejokwu’s conviction that not only had he always fully
cooperated in good-faith and that there was no
legitimate regulatory purpose for the document
request, he reasonably, determined that he might
have foolishly “misunderstood” his regulatory
obligations.

47 See, Johann Wolfgang von Goethe; The Sorrows of Young
Werther (as translated)..

44
In good-faith he took immediate steps to correct
this possible misunderstanding. By the Goethean
principle, he had, thus, proven that there was no
malice on his part.
There is a simple logical test of Goethe’s
principle. When one side is presented with evidence
that “malice and wickedness” are non-existent, they
should
conclude
that
it
was
simply
a
“misunderstanding”. Their response, then would be
to resolve the misunderstanding. That is simply not
what happened here.
So, what happened here?
We are here today because, on at least four
occasions, Fejokwu was rebuffed in his attempts to
resolve the “misunderstanding”. Fejokwu presented
the bank statement in email format or offered to
provide it in any format, at least four times:
1. First, during the SRO Appeals stage.
2. Second, during the appeal to the agency, prior
to submitting briefs.
3. Third, during the appeal to the agency, after
submitting briefs.
4. Fourth, in motion to the agency to reconsider.
All four times the agency-SRO duo refused to
accept the bank statement. They had no desire to
resolve the misunderstanding. Why would they not
want to resolve the misunderstanding? Why would
they not want to receive the bank statement?
So, why has this “misunderstanding” persisted
for six years?

45
The corollary of the Goethean principle, is that
when
one
insists
in
perpetuating
the
“misunderstanding”, then “malice and wickedness”
are present.
The Goethean principle proves there was no
malice on Fejokwu’s side. What does the Goethean
corollary prove of the other side?
Even to the most trusting of observers, this case
emits an unavoidable odor; and to others even a
pungent stench. This Court has a duty to clear the air
of this odor with its judicial disinfectant. If the Court
fails to do so, God forbid, then this odor will spread
widely, no longer insidiously but with a sense of
emboldenment.
kkk

•kick

kkk

“Certain aspects of this case have an Alice
in Wonderland quality about them
the
Commission appears to have acted the
role of the Queen who declared in a
similar fit of pique during the hurried
trial of the Knave of Hearts, ‘Sentence
first—verdict afterwards. 48
This would not be the first time the regulatory
regime would be Alician and not the last time, if this
Court does not urgently intervene.

48 Cited from “Lewis Carroll, Alice's Adventures in Wonderland
156 (Justin Todd illus., Crown Publishers 1984).” in, New York
Currency Research Corporation v. CFTC).

46
CONCLUSION AND PRAYER
Fejokwu unequivocally reiterates his innocence.
Fejokwu unequivocally reiterates that he acted at all
times in good-faith. His good-faith is objectively
proven by indisputable facts in the record — including
the bank statement - that was admitted into the
record by the Third Circuit in response to the CFTC’s
falsehood that Fejokwu refused to provide the bank
statement “even now”. App.60a-64a
The trio of questions presented to begin this
petition have been shown in this petition to all have
the same answer: YES. Therefore, this Court should
extricate Fejokwu from this most unjust professional
abyss, by granting the prayers of this petition.
Otherwise, this Court will be giving its
imprimatur to a fundamentally capricious, unfair,
and unjust regulatory regime. In this unjust SRO
regime, people can have their professional livelihoods
permanently destroyed - in both the USA and other
global jurisdictions that rely on determinations of
USA regulators.
That unjust SRO regime is not one worthy of this
Court’s imprimatur.
Surely, this Court will not allow this globally
reverberating, professionally ruinous, combination of
usurped supreme powers of an SRO, good-faith of the
regulatee, and eviscerated rights of the regulatee to
stand.
kkk

"kirk

kkk

47
Fejokwu, an immigrant has always trusted,
admired, and believed in the exceptional country and
land of the free — America - and her ideals and
protections. Has his trust been misplaced? Has he
admired a farce? Has he believed in an illusion?
Fejokwu, for six years has suffered mightily at
great personal and professional loss in this regulatory
twilight zone.
The American regulatory regime
cannot be a Kafkaesque, Alice in Wonderland twilight
zone - for even a day longer. Fejokwu fervently prays
it ends today.
This Court should assert its supremacy over
Kafka, Alician Wonderlands, and even the usurpatory
NFA by:
1.

granting the petition for a writ of certiorari;

2.

summarily reversing the judgment of the
Third Circuit; and

3.

remanding the case with instructions to
(a) vacate the decision of the NFA hearing
panel; and
(b) dismiss with prejudice the NFA
complaint against Fejokwu.

Respectfully submitted, with gratefulness,
LAWRENCE IKEMEFUNE C. FEJOKWU
Pro se
6905 Bellevue Avenue, 2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
July 22, 2019
Law-Fei@ChazonQTA.com
UCK.IMC.CD.MDDNOLX)n>.SLD.MMI>.MrrD.PS1.35.W.S5.SH.67.H9.70.*!.fin.8fl.91.SUS.nfi.llft»T.l<US,lP.*J.«

